IN THE UNITED STATES SUPREME COURT
UNITED STATES OF AMERICA
Appellee,
v.
CHARLES MICHAEL HALL
Appellant.

)
)
)
)
)
)
)

Supreme Court Case #
Eighth Cir. Case No. 14-2742

REQUEST FOR LEAVE OF COURT TO PROCEED IN FORMA PAUPERIS
Comes now Charles Michael Hall, by attorney, and, pursuant to Title 28 U.S.C. Section
1915(a) and Supreme Court Rule 39, moves this Honorable Court to make and enter its Orders,
granting Mr. Hall leave of Court to proceed in forma pauperis before this Court upon his petition for
writ of certiorari. The grounds for this request will be set forth in the subsequent numbered
subparagraphs.
1. Mr. Hall is a poor person, without the means or funds to prosecute an appeal of his
conviction and sentence of death in the above captioned cause. Specifically, Mr. Hall does not have
the funds to pay the required filing fees, and does not have the funds to pay other costs related to
prosecution of his appeal, including the costs of hiring counsel to represent him on appeal.
2. Evidencing Mr. Hall’s pauper status is the fact that he has been represented at trial and on
appeal in the above captioned cause by undersigned Counsel who was appointed by the District
Court and the Court of Appeals to represent Mr. Hall per the dictates of 18 U.S.C. 3006A(1), and 18
U.S.C. 3599 after Mr. Hall satisfied those Courts that he was indigent, without the means or funds to
hire counsel to represent him in connection with the trial and appeal of the above captioned cause.
3. Mr. Hall has been incarcerated since 1996, and has been sentenced to death in connection
with the above captioned cause. As a result, Mr. Hall continues to have no means or funds to bear
the costs of an appeal, and has no ability to generate such funds.
1

4. The ends of justice will best be served by the Court granting the relief sought in this
Request.
WHEREFORE, Charles Michael Hall prays this Honorable Court to make and enter its Order
granting him leave of Court to proceed, before this Court, in forma pauperis,
Respectfully submitted
/s/Frederick A. Duchardt, Jr.
FREDERICK A. DUCHARDT, JR.
COUNSEL OF RECORD
MO Bar Enrollment Number 28868
P.O. Box 216
Trimble MO 64492
Phone: 816-213-0782
Fax: 816-635-5155
e-mail: fduchardt@yahoo.com
ATTORNEY FOR MR. HALL
CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing Motion was served upon the following by mailing a
copy of same to each this 10th day of August, 2020
Francesco Valentini
United States Department of Justice
Criminal Division, Appellate Section
950 Pennsylvania Ave. NW, Room 1264
Washington, DC 20530
202-598-1227
Email: francesco.valentini@usdoj.gov
Solicitor General of the United States
Department of Justice, Room 5614
950 Pennsylvania Ave., N.W.
Washington D.C. 20530-0001
/s/Frederick A. Duchardt, Jr.
FREDERICK A. DUCHARDT, JR.

2

